<html>
<title> - AFGHANISTAN: LAW ENFORCEMENT INTERDICTION EFFORTS IN TRANSSHIPMENT COUNTRIES TO STEM THE FLOW OF HEROIN</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  AFGHANISTAN: LAW ENFORCEMENT INTERDICTION EFFORTS IN TRANSSHIPMENT 
                  COUNTRIES TO STEM THE FLOW OF HEROIN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2004

                               __________

                           Serial No. 108-215

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
96-524                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
                         Nicole Garrett, Clerk
                     Tony Haywood, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2004................................     1
Statement of:
    Charles, Robert, Assistant Secretary, Department of State, 
      International Narcotics and Law Enforcement Affairs........    15
    Tandy, Karen P., Administrator, Drug Enforcement 
      Administration.............................................    22
Letters, statements, etc., submitted for the record by:
    Charles, Robert, Assistant Secretary, Department of State, 
      International Narcotics and Law Enforcement Affairs, 
      prepared statement of......................................    18
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    61
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Tandy, Karen P., Administrator, Drug Enforcement 
      Administration, prepared statement of......................    24

 
  AFGHANISTAN: LAW ENFORCEMENT INTERDICTION EFFORTS IN TRANSSHIPMENT 
                  COUNTRIES TO STEM THE FLOW OF HEROIN

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Carter, Cummings, 
Ruppersberger, and Norton.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; John Stanton, congressional fellow; Nicole Garrett, 
clerk; Tony Haywood, minority counsel; and Jean Gosa, minority 
assistant clerk.
    Mr. Souder. The subcommittee will come to order.
    Good afternoon. I thank you all for coming. Today our 
subcommittee will address the problem of transshipment of the 
various stages of production, from poppy to opium and finally 
to heroin, from Afghanistan to neighboring countries and 
elsewhere to market.
    We will learn that the estimates of hectares under 
cultivation are now approaching the highest level of past 
production. The cultivation of poppy and the production of 
opium under the Taliban rule reached an individual high of 
4,600 metric tons in 1999.
    If you glance at the United Nations Office on Drug Control 
and Crime chart on the easel to my left, on the far right side 
of that chart you can see the production estimates in the 
postwar on terrorism period. On the second easel you can see a 
4-year comparison from 2000 to 2003, the last full year of 
Taliban production. Then the Taliban crackdown. And then the 
explosive growth during the U.S.-led war on terrorism. Needless 
to say, this is a very troubling trend.
    A significant problem is the judicial system in 
Afghanistan. It does not exist, for all practical purposes. 
Afghanistan does not have the facilities to incarcerate 
convicted citizens notwithstanding any possibility of due 
process. The Taliban ordered farmers to stop raising poppy in 
2001 and stockpiled what product there was. They enforced the 
ban with lethal force, not with judicial process. The farmers 
complied. The farmers also survived by growing other crops in 
the interim. Some have said that the Taliban's motive was not 
to rid the world of heroin but to reduce the supply of 
nonTaliban narcotics and significantly drive up the value of 
their supplies. The Karzai government and the U.S.-led 
coalition has not resorted to such measures to enforce a 
reduction or outright ban on poppy growth; therefore, there is 
no real penalty for growing an illegal cash crop like opium 
poppy.
    So the question of disrupting this particular market must 
be focused on the regions surrounding Afghanistan and the 
efforts to stop the various stages of heroin production from 
reaching any consumer market. We will learn which routes are 
commonly taken, through which neighboring countries, and what 
is being done to interdict these shipments.
    The graphic on the third easel shows what the U.N. thinks 
of the transshipment routes and the major trafficking hubs.
    This problem is worldwide, affecting entire continents. The 
magnitude of the transshipment problem is reflected in the 
destination markets. The United Nations research on drug abuse 
revealed that the opiate abuse ranked first in 30 Asian 
countries, first in 34 Europeans countries, first in the 
Australian continent, and second in North America among drug 
users in treatment. Only Africa and South America had a 
minority percentage of drug users addicted and seeking 
treatment for opiate abuse.
    I am concerned about this problem because over 20,000 
Americans die every year from drugs, and 7 to 10 percent of 
heroin sold in the United States comes from the Afghan region.
    The next issue to examine is the matter of working 
relationships with international and Federal law enforcement 
officials and agencies. Any effective interdiction efforts rely 
heavily on trust and shared information. The Department of 
State develops relationships with host nation law enforcement 
officials where we have embassies. The International Narcotics 
and Law Enforcement Affairs Bureau is establishing training 
relationships that seek and disburse assistance funding. 
Similarly, the Drug Enforcement Administration has agents 
assigned to many foreign countries to advise and assist host 
nation law enforcement officials with investigation, law 
enforcement technology, and training vetted units. With the 
consolidation of many other Federal law enforcement agencies in 
the new Department of Homeland Security, who passes information 
about a load in transit to DHS so that an interdiction can take 
place at sea, at ports of entry, or the areas between the ports 
of entry; and how is the information passed? What is the 
working relationship with respect to counternarcotics with the 
Department of Defense in Afghanistan and the surrounding 
region?
    I have recently returned from overseas, having visited 
Libya, Iraq, Afghanistan, and Pakistan. I have seen some of the 
challenges our witnesses will discuss firsthand. I am very 
interested in what the solutions are, however. What assistance 
does the United States provide to each of the countries in the 
region to help detect and interdict the opium product, the 
precursor chemicals, and the money? I hope the witnesses will 
address the possibility of eradication programs within 
Afghanistan, the interdiction strategies by country in the 
region, the foreign assistance and alternative economic 
development plans, and specific information on resource 
allocation and needs to properly address this crucial and grave 
problem.
    This hearing will address all these difficult issues as 
well as other legislative and other potential solutions.
    We are pleased to be joined by Mr. Robert Charles of the 
Department of State, former staff director of this subcommittee 
in kind of less glorious days before he went off to the big 
powerful State Department, and Mrs. Karen Tandy of the Drug 
Enforcement Administration, who has been a wonderful new 
director there and has also hired the next staff director at 
this subcommittee to work with her. And they will both share 
their insights and concerns and solutions to how to address 
these problems. Both witnesses have been to Afghanistan and the 
region recently, so I expect we will engage in particularly 
insightful discourse.
    We will be joined shortly by Ranking Member Mr. Cummings, 
who I will have do his opening statement if he does it at that 
point. And I thank everyone for taking the time to join us this 
afternoon and I look forward to hearing the testimony of our 
witnesses.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T6524.001
    
    [GRAPHIC] [TIFF OMITTED] T6524.002
    
    [GRAPHIC] [TIFF OMITTED] T6524.003
    
    Mr. Souder. Let me take care of a few procedural matters 
first. I ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record; that any answers to written questions 
provided by the witnesses also be included in the record.
    Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents, 
and other materials referred to by Members and the witnesses 
may be included in the hearing record; that all Members be 
permitted to revise and extend their remarks.
    And, without objection, it is so ordered.
    Now, as Ms. Tandy and Mr. Charles well know, it is the 
standard procedure in this committee to swear in the witnesses.
    And, actually, before we do that, would you like to do your 
opening statement at this point before I----
    Mr. Cummings. Of course.
    Mr. Souder. I yield to Mr. Cummings.
    Mr. Cummings. Thank you. Thank you very much.
    Mr. Chairman, 2 years after the U.S.-led forces ousted the 
Taliban regime, opium production in Afghanistan has skyrocketed 
to record levels as farmers have dramatically increased their 
opium output.
    Earlier this month, the United Nations Office on Drugs and 
Crime estimated that Afghan opium production in 2003 reached 
3,600 metric tons, a 6 percent increase over previous years' 
estimates. The country's highest opium production level since 
1999, this volume represents 75 percent of the world's illicit 
opium production. Afghanistan since the 1980's has been a 
source country for heroin consumed in the West, the Middle 
East, and parts of Asia. Since 2000, it has been the world's 
leading opium producer. Historically, 80 to 90 percent of the 
opium consumed in Europe has traveled the so-called Balkan 
route from Afghanistan to Turkey--to Iran to Turkey to the 
Balkan countries and finally to Europe.
    Although Afghan opium accounts for only a small percentage 
of heroin presently being consumed in the United States, opium 
production in Afghanistan nevertheless has major implications 
for United States security interests. This fact was brought 
into stark relief after the September 11 terrorist attacks when 
Americans learned that the Taliban regime which aided and 
abetted al Qaeda was largely sustained by proceeds derived from 
the trafficking of Afghan opium. UNODC estimates that 
Afghanistan's 2003 opium output could be worth $2.3 billion, a 
figure that dwarfs the country's $40 million in official 
exports to neighboring Pakistan. UNODC also reports that opium 
poppy is being grown in 28 other countries, 32 provinces, 
despite the fact that opium cultivation is officially banned 
and carries stiff penalties under Afghan law.
    Contributing to the problem are consecutive years of 
drought during the 1990's which reduced the amount of aeratable 
land in Afghanistan by 37 percent. Irrigation remains a major 
problem for Afghan farmers who make 38 times as much profit 
from opium as they can from wheat, the second most viable crop.
    Because of this, further increases in production are likely 
in 2004, absent aggressive countermeasures. Controlled by 
warlords and crime cartels, the resurge in the Afghan opium 
trade has undermined ongoing efforts by the regime of the 
interim Afghan President, Hamid Karzai, to establish a strong 
central government, democratic rule, and a legitimate economy.
    According to UNODC, Executive Director Antonio Costa, the 
results of the 2003 survey, in part, the unequivocal warning 
that illegal opium production will continue to thrive unless 
resolute actions are taken. Such actions, he said, must include 
economic assistance for farmers, eradication of opium fields, 
and interdiction of traffickers. Mr. Costa stressed that opium 
production poses a formidable threat to the future of the 
interim government led by President Karzai when he observed 
recently, ``I don't think we can call it a narco-state now, but 
Afghanistan is at a critical juncture. It can go either way.''
    The more we allow the narco-economy to become ingrained in 
the behavior of key people, the more we allow the narco-economy 
to penetrate legitimate business, the more we allow military 
commanders to benefit and profit from these activities, the 
greater the risk, then, the country will go the wrong way.
    UNODC believes that hundreds of millions of dollars in 
narcotics profits are ending up in the hands of terrorist 
groups, including remnants of the Taliban and al Qaeda which 
control shipping routes with roadblocks.
    A recent U.S. Security Council mission to Afghanistan 
affirmed this view, citing drug trafficking alongside terrorism 
and factional warfare as a triple threat to the reconstruction 
process. In January, Afghanistan pledged more aggressive 
efforts to fight drug cultivation and trafficking, and the 
country has entered several regional cooperation agreements 
with neighboring countries to fight drug trafficking and 
terrorism. Still, it appears the flow of Afghan opium across 
the porous borders separating these countries continues 
unabated, as does the flow of drug proceeds into the hands of 
terrorists plotting harm against the United States and our 
allies.
    Equating drug trafficking with terrorism, UNODC recently 
has called on coalition forces in Afghanistan and the North 
Atlantic Treaty Organization, International Security Assistance 
Force, to help the country fight the illicit drug trade. In 
addition, there is reluctance among coalition governments to 
involve their troops in antidrug trafficking activity because 
the troops immediately would become targets of the all powerful 
drug syndicates.
    Despite this, news reports indicate that Britain and 
Germany have recently sent, or pledged to send, troops to fight 
drug trafficking in Afghanistan, and the U.S. military 
commanders are evaluating whether to expand the role of 
American troops in assisting the Afghan Government's antidrug 
efforts. The State Department's Bureau of International 
Narcotics and the Law Enforcement Affairs and the Drug 
Enforcement Administration play lead roles in implementing U.S. 
foreign policy in the area of narcotics control. The DEA has a 
small representation in Afghanistan and regional transshipment 
countries, and in 2002 launched a multinational operation 
containment initiative to deny market access to drug 
traffickers and to deny terrorist groups access to illicit 
proceeds from drugs, precursors, weapons, and ammunition.
    Both DEA Administrator Karen Tandy and Assistant Secretary 
of State Robert Charles have recently returned from the Afghan 
capital of Kabul where they and other senior U.S. officials met 
with President Karzai, UNODC Executive Director Costa and other 
representatives from Afghan and the European Union to discuss 
the challenges posed by Afghan drug production.
    Today's hearing provides us an opportunity to hear from 
these two key officials concerning what U.S. foreign policy 
initiatives are underway and what more must be done to curtail 
opium production and trafficking within Afghanistan, to keep 
Afghan heroin from reaching international markets, and to 
prevent the drug trade from fueling the vehicles of terrorism.
    And so with that, Mr. Chairman, I thank you, and I look 
forward to the testimony.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T6524.004

[GRAPHIC] [TIFF OMITTED] T6524.005

[GRAPHIC] [TIFF OMITTED] T6524.006

[GRAPHIC] [TIFF OMITTED] T6524.007

[GRAPHIC] [TIFF OMITTED] T6524.008

    Mr. Souder. I want to thank the ranking member, Mr. 
Cummings, for his leadership on the narcotics effort. It has 
really been great to work on this in a bipartisan way and to 
make sure we are tackling it both in the United States, and 
before it gets to our streets here in the United States and 
around the world.
    With that, I think we will go ahead with the swearing in of 
the witnesses. It's the standard practice of this subcommittee 
to have you testify under oath. So if each of you would stand 
and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both responded in the 
affirmative. And it would be really sad if we had to go after 
our former staff director of this committee if he didn't tell 
the truth. So, you are now even more under oath than normal.
    Obviously he always tells the truth. I just had to harass 
him just because it's his first official appearance.
    With that, we will go to Mr. Robert Charles, Assistant 
Secretary of State for Narcotics.

STATEMENT OF ROBERT CHARLES, ASSISTANT SECRETARY, DEPARTMENT OF 
   STATE, INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT AFFAIRS

    Mr. Charles. Thank you, Mr. Chairman. And I also want to 
thank both of you personally. You have been leaders in this 
fight and in Congress for as long as you have served, and I 
think in both of your parties and for Congress as a whole your 
leadership allows the rest of us to do our jobs. So I am just 
grateful that you are there and for this hearing. I also agree 
with both of your opening statements, and just want to add what 
insight we can from our perspective.
    Again, I appreciate the opportunity to speak before you 
today on the subject of Afghanistan, the narcotics situation 
and strategy, the administration's strategy for dealing with 
narcotics, both within Afghanistan and trafficked from it, is 
proactive and coordinated in the interagency. It is intended to 
reduce measurably the heroin poppy cultivation, to encourage 
alternative income streams, to destroy drug labs, to promote 
drug interdiction, and to develop the justice sector to 
facilitate proper prosecution and sentencing of traffickers.
    This State Department bureau, the Bureau of International 
Narcotics and Law Enforcement, is intent on working closely and 
effectively both with Congress and the DEA to implement this 
strategy. As you indicated, in fact the DEA administrator and I 
have recently returned from a fact-finding trip to Afghanistan, 
where we represented the U.S. Government at the 
Counternarcotics Conference in Kabul earlier this month.
    Pieces of this counternarcotics strategy are proportionate 
to the urgency and to the needs presented on the ground. The 
various pieces of this emerging strategy are both complementary 
and independently important. The key words are, I think, 
proactive, comprehensive, and accountable.
    A few first impressions, again, confirming some of the 
things you have said in your opening statements. My recent 
meeting with President Karzai reaffirmed my conviction that he 
means business. He is serious about tackling the heroin threat 
in his country. This is a leader who is dedicated to breaking 
the cycle of opium poppy cultivation and narcotics trafficking 
in his country before local trafficking rings become cartels 
and put down tap roots, transforming Afghanistan into what some 
might call a narco-state. President Karzai is determined, I 
think, to proceed with every major aspect of breaking the 
heroin trade, even as he reinforces the productivity of 
alternative legitimate income streams such as through the 
production of wheat, maize, barley, and other needed crops.
    One thing I would ask if we could take a look, one of the 
charts indicates how the Afghan economy really is made up. 
Farmers don't make much on heroin poppy. On the other hand, 
they do make more than they make in other crops. But I think 
one of the things that people fail to understand is that 98 
percent of the economy is actually in legitimate crops, wheat, 
barley, maize, rice. And so we want to encourage that to grow.
    As you know, there are three essential components to our 
accelerating counternarcotics strategy. The first component is 
targeting the eradication of the heroin poppies. The second is 
the targeted, ever-widening availability and reinforcement of 
alternative streams of income. Democracies, of course, are 
consolidated not by reliance on drug money, but by pairing 
well-supported democratic institutions and the rule of law with 
the sound growing in free market and legitimate goods.
    Afghanistan has great needs, for example, in the area of 
legitimate agriculture. Food is a problem, and that is one of 
the reasons this strategy, I think, also works well and is 
intended to meet those needs. We intend to support the growth 
of the legitimate economy in that and other sectors.
    Third, and finally, law enforcement, interdiction, and the 
justice sector reform are also key to success. We must raise 
the costs and risks of heroin trafficking while raising the 
incentives for joining and remaining a part of the legitimate 
economy. Only 8 percent, as that chart indicates, of 
Afghanistan's cultivated land is presently used to grow 
poppies, and we must make the incremental risk of associated 
heroin poppy profits higher than the extra income it might 
produce.
    There are other dangers from which we cannot avert our 
gaze. Afghanistan's heroin, which sells on the retain market 
for about 100 times the farm gate price, the price that the 
farmer gets, is a source of a growing reservoir of illegal 
money that funds international crime across the region, 
sustains the destabilizing activities of warlords, and fosters 
local coercion and terrorism. While available information about 
this pattern continues to grow, we cannot afford to stand by 
and wait as these destructive relationships and behaviors 
become clearer and more closely institutionalized. Our 
comprehensive approach takes stock of these linkages and is 
accelerating the effort to break each of them.
    A few final thoughts. On eradication, some would argue, 
wait. Other priorities, they suggest, might trump this 
activity. I would argue that swift action is essential. 
Distinguishing the urgent from the otherwise important requires 
that we tackle the poppy crop now. So we are doing that with 
the Afghan security, in a two-phase program led by the British 
initially, and after April or May, by U.S. support to the 
Afghan central government.
    Second, I can say without qualification that we have a 
commited ally in the Afghanistan Government. President Karzai 
believes in democracy, the rule of law and human rights, and a 
robust counternarcotics effort. I see no signs of half-
measures, and we are similarly committed.
    Third, I am convinced that the drug money in terrorist 
organizations in Afghanistan and throughout the region are like 
chain links, bound tightly by mutually reinforcing motivations 
and operations. While there are other links in that chain, it 
is my conviction, based on the information available, that 
these two threats overlap palpably and incontrovertibly in 
Afghanistan.
    Fourth, we are cooperating closely with our European allies 
to support the Afghan Government. We are pressing for increased 
coordination and cooperation from the British on 
counternarcotics, the Germans on policing, and the Italians on 
justice sector reform.
    Fifth, and finally, INL, the Bureau of International 
Narcotics and Law Enforcement, is determined to support and 
encourage cooperation between not only other efforts of the 
State Department but also DEA, DOD, and USAID. Congress 
empowers us to achieve these results for the American people 
and for the Afghan people and for the greater local, regional, 
and international security of all of us. Congress has funded 
the INL coordinated portion of this effort with 50 million in 
supplemental appropriations in fiscal year 2004, of which a 
significant portion is dedicated to eradication.
    Separately, you have funded INL police training and 
criminal justice sector development for an additional $170 
million. And of that, $160 million is being used to build seven 
police training centers for training 20,000 police by June, and 
$10 million is being used to develop the justice sector.
    In short, we are seeking to prevent the 
institutionalization of the heroin cartels, to support 
democracy's early days in post-Taliban Afghanistan, to 
reinforce the best instincts of a people now freeing themselves 
from the terrorist's yoke, and to confront those that still 
threaten to destabilize that society through both narcotics 
trade and terrorism.
    I will gladly add more detail later, but I will just say 
again, thank you for bringing this to the fore. And you have 
our pledge, my pledge, that we have a full court press on in 
both counternarcotics and counterterrorism. Thank you.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Mr. Charles follows:]

    [GRAPHIC] [TIFF OMITTED] T6524.009
    
    [GRAPHIC] [TIFF OMITTED] T6524.010
    
    [GRAPHIC] [TIFF OMITTED] T6524.011
    
    [GRAPHIC] [TIFF OMITTED] T6524.012
    
    Mr. Souder. And now I would like to move to Director Tandy.

 STATEMENT OF KAREN P. TANDY, ADMINISTRATOR, DRUG ENFORCEMENT 
                         ADMINISTRATION

    Ms. Tandy. Good afternoon, Chairman Souder, Ranking Member 
Cummings, and distinguished members of the committee. It is a 
privilege to appear before you today on behalf of the Drug 
Enforcement Administration to discuss our efforts to stem the 
flow of heroin from Afghanistan.
    On behalf of the men and women of DEA, I particularly want 
to thank this subcommittee for your steadfast support for our 
efforts both on behalf of the agency and our mission.
    Two weeks ago I returned from Afghanistan, and I saw for 
myself that the stakes in our war on narcotics there could 
scarcely be more urgent. Opium production has returned to 
nearly the same high levels as under the Taliban. This criminal 
trade feeds political and economic instability and provides 
fertile ground for the development of the sinister 
relationships to flourish between drug traffickers and 
terrorists. For those reasons, working in this region is a top 
priority for the Drug Enforcement Administration and for me.
    I want to begin by describing our efforts, efforts 
undertaken in the face of a number of operational obstacles 
that we encounter daily in Afghanistan. Three decades of civil 
war and unrest have left the criminal justice system there 
without even its most basic elements. There is yet no developed 
police force, no prosecutors, no judges, and no prisons. The 
Afghan Counternarcotics Directorate is in its infancy, which 
leaves DEA with no viable national or local counterpart drug 
agency with which we can work.
    Moreover, security constraints restrict our ability both to 
move within the country and to conduct our traditional drug 
investigations.
    That said, DEA is a resourceful agency, and as such we are 
making considerable leeway--headway, rather--in the 
counternarcotics efforts in this region. We are seizing 
opportunities to disrupt Afghanistan's opium trade, deny 
terrorists a revenue source, and to inflict damage on the 
international drug markets. We are doing this principally in 
two ways. The first is interdiction. Like all other drug 
traffickers, Afghan trafficking organizations must move their 
illicit product to market. However, unlike most other source 
countries, Afghanistan is landlocked, and this forces the 
traffickers to rely on difficult and complex overland 
transshipment routes. DEA and our international counterparts 
are focused on various pressure points along these routes. 
Through Operation Containment, 19 countries, led by the Drug 
Enforcement Administration, are choking off the flow of drugs 
and precursor chemicals into and out of Afghanistan before they 
can spread to the broader markets. While Operation Containment 
has been under way for just 2 years, I am pleased to report 
that it is achieving great success. Since January 2003, 
Operation Containment has lead to 23 significant seizures of 
narcotics and precursor chemicals as well as the dismantlement 
and disruption of several major distribution and transportation 
organizations involved in the southwest Asian drug trade.
    I would like to give you two quick examples of these 
successes. Most notably, Operation Containment has led to the 
disruption in Istanbul of one of the most significant heroin 
trafficking organizations in Turkey, and resulted in an all-
time record seizure of 7.4 tons of morphine base. I would like 
to note that this single 7.4 tons of morphine base, this single 
seizure is 4 times greater than the worldwide seizures in the 
year 2000 prior to Operation Containment.
    The operation has also resulted in the seizure of over 
1,000 kilograms of heroin in Turkey and the arrest of several 
traffickers. It is reported to be, as I said, the largest 
heroin seizure in Turkey's history.
    Operation Containment also has built law enforcement 
cooperation throughout the region. And as a result of these 
growing partnerships, a joint investigation by the Drug 
Enforcement Administration and our Turkish and Russian 
counterparts resulted in the seizure in Turkey of 4 tons of 
acetic anhydride, which is the chemical used in the production 
of heroin.
    In addition, the seizure of 17 tons of acetic anhydride at 
a border crossing in Turkey led to an additional 5.5 tons of 
the chemical buried at a Turkish farm.
    The second way we are attacking the Afghan opium trade is 
by working in country with our coalition partners. I have 
directed DEA's agents in our Kabul, Afghanistan office to 
aggressively focus their intelligence collection on identifying 
heroin processing labs, and sharing that information with the 
Afghan authorities and our allies among the coalition partners.
    DEA strongly supports the Defense Department's initiative 
to open an intelligence fusion center in Afghanistan in order 
to multinationally share information.
    In addition, our offices in Kabul and throughout the region 
are focused on identifying the major trafficking organizations 
and their money flow so that we can strategically attack them 
where they are most vulnerable, whether inside Afghanistan or 
elsewhere in the region.
    After my recent visit to Kabul and my discussions with the 
U.S. Ambassador there, I am particularly pleased to report that 
DEA will be and is now working to significantly expand our 
presence in Afghanistan and in Kabul.
    As this subcommittee knows, the challenges to the 
counternarcotics efforts in Afghanistan and the region are 
great, but the stabilization--excuse me, the opportunities to 
take down the drug trade and support stabilization are just as 
great. And for this reason I am cautiously optimistic about the 
future of our drug enforcement efforts in Afghanistan.
    In my written testimony I've addressed DEA's initiatives in 
the region in greater detail, and I would be delighted to 
answer any questions the committee may have. Thank you.
    [The prepared statement of Ms. Tandy follows:]

    [GRAPHIC] [TIFF OMITTED] T6524.013
    
    [GRAPHIC] [TIFF OMITTED] T6524.014
    
    [GRAPHIC] [TIFF OMITTED] T6524.015
    
    [GRAPHIC] [TIFF OMITTED] T6524.016
    
    [GRAPHIC] [TIFF OMITTED] T6524.017
    
    [GRAPHIC] [TIFF OMITTED] T6524.018
    
    [GRAPHIC] [TIFF OMITTED] T6524.019
    
    [GRAPHIC] [TIFF OMITTED] T6524.020
    
    [GRAPHIC] [TIFF OMITTED] T6524.021
    
    [GRAPHIC] [TIFF OMITTED] T6524.022
    
    Mr. Souder. We have also been joined by Congressman Carter. 
I appreciate his being with us as well.
    I am going to start the questioning. I assume we will go 
several rounds. It's unusual for us to have a one-panel 
hearing, but we want to explore this subject relatively 
thoroughly. We have been having meetings the last few days as 
well.
    But let me start with my first round with Mr. Charles, that 
British government officials had told me a little over a year 
ago and have told our staff more recently that attacking 
strategic targets like opium warehouses and processing plants 
would have an enormous impact on disrupting the trade in and 
around Afghanistan. And, in fact, in one of the articles in the 
Financial Times it says they attacked one in early January. Why 
have these facilities not already been destroyed? And what is 
the explanation for lack of action on this matter? And who is 
responsible?
    It appears from your testimony that we're all of a sudden 
becoming aggressive, which is really laudable. The question is, 
how do we get to this point? And are those barriers being 
lifted? Did you sense the barriers were there before? Could you 
kind of discuss this fundamental question of why, since we 
appear to have had quite a bit of this knowledge, actions 
hadn't been taken up until now?
    Mr. Charles. Let me say I have been on this job for 120 
days, so I will take full responsibility for everything during 
that 120 days.
    But let me also go beyond that and say the point you make 
is a good one, that there are many force multipliers in a world 
in which you have not institutionalized the heroin market yet. 
And what do I mean by that? I mean there are no heroin cartels. 
You have several warlords who make a lot of money on this. And 
you are absolutely right, that if you can target the places 
that they keep the heroin, the labs in which they create the 
heroin out of heroin poppies, you can disrupt that market in 
ways that probably go beyond what we could do anywhere else in 
the world because it is not yet institutionalized.
    Let me say also that while there are many force 
multipliers, this is one that I think the entire interagency 
process is beginning to realize can be very significant. And as 
you indicated, there was at least one recent example where this 
occurred.
    From the State Department point of view, we are working 
hard to spur greater intelligence sharing, greater information 
sharing across all the spectrums, so that when you come up with 
CN intelligence, counternarcotics intelligence, it's shared 
broadly; if you come up with counterterrorism intelligence and 
it happens to bump into things that relate to narcotics, that 
is shared broadly.
    We are also, obviously, moving out into the field ourselves 
to try to kill the poppies, and obviously that will have a 
force multiplier effect.
    The specific question about could more be done: And I can't 
speak to the question of whether more could have been done in 
the past, but I can speak to the question as to whether or not 
more will be done in the future. And I think we have a stronger 
and stronger working relationship with the Department of 
Defense. My understanding is that there is some guidance, I 
haven't seen it yet, that would indicate that when the 
Department of Defense finds, in the course of a 
counterterrorism mission, narcotics, they are able to then 
either destroy it directly--I think that's what they will do--
or be able to empower others to do that.
    We are also supporting the British. And you mentioned the 
British. They are active in the field, and we are supporting 
them in a number of ways. And I have been pressing them as the 
assistant secretary to do more, and I am actually encouraging 
them that we think we can do more with them.
    So the short answer is I think you are going to see maybe 
not an exponential change but a marked increase in interagency 
coordination and probably the international or multinational 
coordination on this. And that is critical as a force 
multiplier.
    Mr. Souder. Without getting into, because I don't have all 
the information, so I'm not attempting to get into classified 
materials. But we are all pretty aware that there is another 
agency involved as well that's on the ground with contract 
employees. Is the CIA a part of these interagency teams? And 
how is that working as you move into the different zones?
    Mr. Charles. Well, let me address it in an unclassified way 
and put the chart on the wall, so people can see it, something 
I asked to be declassified.
    There is a chart which is up on the wall now which you will 
see indicates, in an unclassified or declassified way, that 
there are four terrorist organizations that we know are 
involved in Afghanistan: Hezbe-Islami, HIG, Taliban, Islamic 
Movement of Uzbekistan, and al Qaeda. At varying degrees of 
connectivity or connectedness, you can see that these 
organizations have some relationship, we think, to the drug 
trade. And you can see again, based on the color coding, that 
some of them are stronger, almost definitely involved in one 
way or another, and others are possibly involved.
    What I would say to you is that my sense, from where I sit, 
is that there is an increasing degree of interagency 
coordination on information sharing, and that the greatest 
force multiplier of all is the sharing of information. At the 
end of the day, we have to have people in the country that can 
do this job, we have to be all of us commited to the same 
mission. And I would also add that we do not want, and I 
certainly would never advocate, that we diminish in any way the 
counterterrorism effort just because we are also driving hard 
to eliminate the counternarcotics, the narcotics problem.
    But I would end it by saying--my answer--by saying the 
reason I think that everybody working together on the 
counternarcotics piece is so important is that you cannot erect 
a lasting castle on sand and you cannot erect a lasting 
democracy on a heroin economy.
    Mr. Souder. We haven't necessarily made government more 
efficient, but we have had some clarification of roles, at 
least in a theoretical way, with the organization of the 
Department of Homeland Security, with the FBI taking a more 
security orientation, with the military having a more military 
mission, and the CIA having multitasking but more on terrorism 
and security risks of the United States. Which has left, at 
least theoretically, DEA as the primary narcotics agency, and 
has the money in your area inside State as the primary 
narcotics area. That isn't saying Homeland Security doesn't 
have large chunks, too, and the old Border Patrol and Customs. 
But your relationship between the two of you becomes more 
critical.
    You announced a number of new initiatives that you are 
undertaking. Have you talked those through with the DEA and you 
are going to coordinate those, in particular, with them?
    Mr. Charles. Well, I will let Karen speak to that issue in 
terms of the many discussions and the support that we provide 
and her view of the support that we provide.
    Let me say that my view is that we are working very closely 
together on a number of fronts. There are things called 
sensitive investigative units that since about 2000 we have 
begun to work even more closely on. We are highly supportive of 
DEA, not only in Afghanistan, but, as you have indicated and as 
other members have indicated, in surrounding countries because 
containment is terribly important.
    Containment always reminds me of the cold war era word 
``containment.'' And I am reminded of what Ronald Reagan did 
shortly thereafter, which is to move to what he called 
``rollback,'' which is to move even further and more 
aggressively.
    And if I were to characterize where we are going, I would 
say I hope that the place we are going is to roll back the 
whole trafficker environment so that we can stabilize all of 
these countries more directly. But I think we have a close 
working relationship that is, in fact, leading in this area.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Mr. Charles, the UNODC's 2003 estimate 
suggested the Afghan opium output reached record levels last 
year and accounted for about 75 percent of the opium production 
worldwide. What explains that explosive figure?
    Mr. Charles. Let me take a short stab at that and say, 
incidentally, I think it was the second highest year rather 
than the highest year. But that is not to say that it isn't a 
matter of enormous concern.
    You have a country in which survival tends to be the 
driving force right now. Farmers, as I indicated in my 
testimony, make about a dollar for the same quantity of heroin 
that shows up on the streets of Paris and commands a price of 
$100, or the streets of New York, by the way, or the streets of 
Baltimore where you have been a leader, and this is a genuine 
problem.
    What has transpired, I think, is that as the government, 
the central government has gotten more in control of the 
environment, as the interagency process--and we have migrated 
from a military mission which was dedicated to counterterrorism 
into an environment where we see both counterterrorism and 
counternarcotics as mutually or equally important, or both of 
them very important for the long term. We have migrated the 
whole strategy. There has been a ponying up of dollars. The 
dollars this year, we have $170 million to work with on 
policing. And we do all the policing, by the way, at INL, too. 
We have seven police academies that we are getting off the 
ground in Afghanistan. But there has also been a supplemental 
of $50 million, which allows us for the first time to 
aggressively go and eradicate.
    And I want to illustrate--and I'm not sure we can put this 
up on the wall, but there is a picture. This chart illustrates 
how the--on the right-hand side as you look at it--how these 
plots are largely done. It takes manual eradication or an 
incentivizing structure to get people out of the business of 
growing them. Because you cannot do aerial eradication in 
Afghanistan the way you can on Colombia.
    In Colombia we are making some significant progress with 
the Colombian Government on aerial eradication. Here, it's 
going to be manual and it's going to be driven by incentives 
and it's going to be driven by a number of factors which, 
frankly, have only just begun to coalesce. And so I would tell 
you that as with any major undertaking, including, 
incidentally, Plan Colombia, it takes a couple of years to get 
the process in motion. And what happened is there was a gap in 
time between when the Taliban were thrown out of government and 
the military was stabilizing the country. And you could 
actually initiate under the leadership of President Karzai a 
program that would actively work on both eradication and a 
number of other components.
    Remember, too--I guess I would just say that it's hard to 
imagine what we are confronting in Afghanistan. The way I would 
describe it is that it's as if someone said to you, you have to 
build a house tomorrow, within 24 hours, and you have to pour 
the foundation and put the roof on and stud up the walls and 
put windows in and put doors in all at once. And my pledge to 
you is we are trying to do that. But the eradication piece is 
coming on line now because, literally, it took time to put 
these pieces in place. And you, Congress, have given us the 
money to do this, and I am grateful for that and we are driving 
ahead full force to do that.
    Mr. Cummings. Ms. Tandy, you know, I think it was the last 
Super Bowl, I saw these commercials where they were saying--
talking about the relationship between terrorist organizations 
and the drugs on our streets. And, you know, I was just trying 
to figure out, where do you see, how does the--how would you 
rank the Afghan drug trade in terms of threats to our security 
in this country?
    And then I want you to comment, maybe both of you, but Ms. 
Tandy you talked about no judges, no prosecution, no prisons. 
You know, it just seems like it's almost an impossible task. I 
mean, we talk about a thin blue line in the United States with 
regard to policing. But, there, there is no line. And I know 
you just talked about your seven training facilities and--but 
what, how do you deal with that? I mean, you catch somebody, 
and is that do they--I mean, what do you do?
    Ms. Tandy. Taking it in the order that you asked, 
Representative Cummings, the Afghan heroin threat to this 
country can be measured in terms of raw numbers, that which is 
heroin that makes it into this country from Afghanistan and in 
that region. We are still compiling the actual numbers from our 
two programs that help us measure that: the heroin signature 
program, which measures the samples of heroin coming into the 
country at ports of entry to determine what the source is, what 
country source or what regional source the heroin is arriving 
to the United States from; and our domestic monitoring program 
where we buy samples of heroin and have that tested, again, to 
determine the regional source.
    For us, 20 years ago in this country, Afghanistan 
represented 50 percent of the supply of heroin to the United 
States. It is and has been around 7 to 10 percent. We won't 
know the final numbers for this past year until sometime in 
September when all of those samples have been analyzed. But 
that is a clear threat to our country, including Baltimore and 
this northeast corridor in particular, where heroin is 
especially problematic for us.
    In terms of the----
    Mr. Cummings. Where does the rest of it go?
    Ms. Tandy. I'm sorry?
    Mr. Cummings. Where does the rest of it go? You accounted 
for 7 percent. Where does the 93 percent go? Europe?
    Ms. Tandy. A great portion of that goes to Europe, 
certainly the UK, which is why they have the lead on 
counternarcotics in Afghanistan among the coalition partners.
    Mr. Cummings. And when you say they have the lead, it seems 
like quite often when the United States is involved we seem 
to--we may, even if we are not leading, although we usually 
are, it seems like we are putting in a whole lot of resources, 
and sometimes others who benefit greatly are not putting in as 
much. Now, does the lead also go to how much money they are 
putting in?
    Mr. Charles. Let me address that, if I may, because that is 
something that I ask about regularly. In both my former life 
and in this life, it's certainly worried me that we are 
proportionately carrying a lot of the burden; historically 
have. But let me say, both in addressing your question, your 
earlier question, but also on the dollar question, actually for 
this hearing I broke it out, and we have about $130 million in 
counternarcotics programs that the British are pressing forward 
over a 3-year period. We have an additional commitment of 2 
million and change to press this immediate initiative on 
eradication. They will also--and there is some components you 
may want to be briefed on, that can't be discussed in this 
hearing, that the British are actively involved in, that I 
think are highly supportive of the interdiction effort on 
balance. We have asked them to pony up, and they have done so 
in a number of other areas that involve information sharing.
    I have another list I will give you of other countries. 
Don't--please don't take away from what I'm saying that I am 
satisfied that we are proportionately--I believe that they are 
the lead and they are doing a lot, but I think all of us and I 
think collectively can do more. And that is one of the things I 
am personally pushing for.
    I want to address four points that really come to your--the 
four questions, sort of subsidiary questions that I think you 
just asked.
    One is the impact on this country in heroin. And I want to 
tell you that every piece of information I have supports what 
the administrator just said, which is that 7 to 10 percent of 
the heroin on our streets today is Afghan or at least southeast 
Asian--and southwest Asian heroin. The significance of that--
people say that's not enough for us to care a whole lot about 
that problem versus, let's say, the Colombian heroin which 
shows up, up and down the eastern corridor. I tell you that my 
view is that we have about a million addicts in this country, 
heroin addicts. That's 70,000 to 100,000 souls right there. So 
that's enough reason for me to be involved.
    The second thing I would say on the terrorism threat. You 
will notice that in the chart that I provided, you have al 
Qaeda and a number of other groups that are involved. 
Historically, and to this day, we do not have what I would call 
evidence of--in a case-making way on individuals beyond those 
that have already been apprehended, but we do have something 
that is almost as strong for warfighting purposes and for 
protecting our national security, and that is very strong 
indications, objective indications that there is a very tight 
overlap between heroin--drugs, Afghan drugs, heroin, and the 
terrorist organizations that are there. And what that means is 
that if you took two circles and drew them on a sheet of paper, 
and one was drug traffickers and one was known terrorist 
organizations, they would overlap each other, in my view, on 
the information that I know, substantially.
    So that's the second piece. National security is protected 
by being aggressive in knocking out the funding source for 
terrorism, and Afghan heroin is a part of that.
    The third thing is the justice sector. You are right, it 
is--as I indicated in terms of the building of a house, it is a 
very difficult thing to do everything at once, but--so that 
there isn't a sense of utter hopelessness, and in fact I would 
urge hopefulness--what we are able to do is a targeted process 
of apprehending drug traffickers. What I foresee happening is 
we will apprehend, with the Afghan Government, drug 
traffickers. There are prisons, there aren't a lot of them. 
There will be courthouses. We are putting $10 million in right 
now to the building or rebuilding of courthouses. We are 
training judges. The INL is doing this. We are training 
prosecutors. There will be, in fairly short order, the ability 
in a targeted way to send a message that drug trafficking and 
criminal activity of this kind is not tolerated in a free and 
democratic and noncorrupt Afghanistan. And that's part of what 
we are doing.
    The final question you asked was with respect to police. 
And I would tell you again that we are at the beginning of a 
process that I find far more hopeful than I often read in the 
media. I think we have a great deal of reason to be hopeful 
about the future. We are on track. And I say to you, every 
barometer--and I check this every day, and we had a big meeting 
yesterday and I talked with the Ambassador. We are on track to 
produce 20,000 police, at least, by June. And in that process, 
in the seven academies which will bear, each one of them, 
about--they will have a capacity for about 1,250 each. We have 
the instructors. We are moving it forward. There is no problem 
with the recruits that we know of.
    We are moving forward, with the leadership of the Afghan 
government, to generate a secure environment. And I think--all 
I would tell you is keep bringing us back in front of you. Keep 
asking us these questions and asking us if we are making 
progress. And to date, because I am very much an honest broker 
and feel that in many ways I am an oversight guy who happens to 
be working in program administration, that we are on track. And 
to that end I give you, I guess, a little more encouraging 
message.
    Ms. Tandy. Representative Cummings, if I could just add 
with regard to your question about the justice sector obstacles 
for us. It is precisely the lack of institutions currently in 
Afghanistan that makes Operation Containment so critical. With 
the seizures, prosecution of those who are trafficking the 
heroin through the region into Europe and elsewhere, that is 
where we are able to have the greatest enforcement impact 
currently, until these institutions do mature, do stand up in 
Afghanistan.
    I also have met with our British counterparts and discussed 
with them our statutory framework under 21 U.S.C. 959, which 
has an extraterritorial jurisdiction provision and has been 
applied most effectively against Colombian traffickers, where 
those who never leave Colombia but are sending drugs into the 
United States from Colombia are charged in the United States 
and extradited from Colombia or expelled for prosecution in the 
United States simply because they knew or intended to send 
drugs to the United States. We are trying to apply that same 
statutory framework to Afghanistan, to remove those trafficking 
organizations in Afghanistan and prosecute them in the United 
States, to the extent that we can, through intelligence and our 
enforcement efforts, make those linkages as to intent; and, if 
not to the United States, to the U.K. Under this same kind of 
statutory framework. And we are working with them to develop 
that procedure in the U.K.
    Mr. Cummings. Thank you very much.
    Mr. Souder. Congressman Carter.
    Mr. Carter. Thank you, Mr. Chairman.
    I have just returned from Afghanistan. I was there last 
week. We had an opportunity to meet with President Karzai, with 
the Ambassador, our Ambassador, and with folks within their 
Defense Department and their State Department. And when it was 
my turn to ask the question, this was my question: Let's talk 
about the drug situation here in Afghanistan, and what are you 
going to do about it? He gave very positive, very direct 
answers that it's a major concern. He's on board. He mentioned 
the DEA was doing outstanding work there.
    But the underlying theme to me--and I'm not speaking 
negatively; I was very positively impressed by the President 
and his cabinet. But I was--I felt an underlying theme that 
they've got a whole lot more problems than this right now, and 
this is their cash crop. And it really is. And they don't have 
political parties and they are about to try to hold elections 
this summer, a whole lot of the police force is going to be 
tied up trying to keep things in control. That's the most 
heavily armed bunch of civilians on the face of the Earth. And 
I asked the general how he distinguished a bad guy from a good 
guy, and he said: A good guy only has two clips of ammunition; 
a bad guy either has hand grenades or more than two clips of 
ammunition. It's a very difficult problem in Afghanistan to 
deal with.
    And I think they overall are on board to try to do 
something with this, but it's a farmer problem. And to me, and 
I asked this question, it's a processor problem. It looks like 
to me that you are not ever going to get these farmers. These 
farmers, you are right, they are making about a dollar off this 
deal, but somebody is making a whole lot more than a dollar off 
the deal, and those are the guys that are making the heroin. 
These guys are producing opium poppy, they are selling that, 
and it is the guys who are processing the heroin.
    And I missed part of your testimony. It may be that is the 
target that you are onto, but it looked like to me--and I was 
well aware that this was a small portion of our heroin. I've 
been a trial judge for 20 years, so I know at least from my 
point of the world a little bit about this. And I knew that 
this was not a major source of heroin for our country, but it 
is for Europe and it is for Russia and it is for some other 
areas over there.
    I asked about processing, and I didn't get a good answer. 
What do you--it's the heroin manufacturers, if you will, that 
are making the money and also the people that are shipping the 
finished product out of that part of the world. Where are we on 
attacking the manufacturers? And it's going to be our fight for 
a while, not theirs.
    Ms. Tandy. Representative Carter, the greatest effect of my 
trip to Afghanistan 2 weeks ago was to recognize new 
opportunities for us to make headway against the stockpiles, 
the labs that are processing the opium into heroin, and we will 
be seeking to enhance our presence in Afghanistan to do that 
now. Until recently, security constraints in Afghanistan 
prevented DEA from effectively moving throughout the country. 
We have, as a result of my visit there, along with Assistant 
Secretary Charles, we have identified some new partnership 
opportunities to move successfully through that country. We are 
working with the Brits and our other partners in the country 
specifically to attack those labs.
    I can tell you from my meetings with President Karzai, the 
cabinet, and the U.S. Ambassador, there is a great deal of 
enthusiasm in that country at all levels for going after those 
labs; and I am very optimistic that we will be able to make 
progress against the labs. We will do it in part through 
enhanced intelligence. I am temporarily detailing from DEA 
additional bodies, additional people from DEA to conduct that 
kind of enhanced intelligence mining with the U.S. military and 
assigning a person to Bagram.
    We also are assigning a person to Kandahar--at least one to 
Kandahar to work with the Brits and other partners in Kandahar, 
again focused on the organizations and labs; and we are 
identifying trafficking organizations in that country.
    We are also--we have a new country attache. We have a 
deputy attache, the new country attache, you may have met, who 
would have probably arrived in Afghanistan perhaps the same 
time you did.
    Mr. Carter. I think he had been there 3 days.
    Ms. Tandy. His deputy will be there within 30 days. We are 
adding 30 more temporary detailees to the U.S. Embassy, to our 
office there in Afghanistan, in Kabul. So I see opportunities 
or I can tell you I wouldn't be pulling all of these temporary 
assigned people from other places in DEA and moving them into 
that country.
    I do sense the urgency of making that progress and hitting 
where we will have the greatest impact, which is the labs and 
those organizations and doing it now.
    Mr. Carter. Absolutely. One of the things that I came away 
from there was that is really going to be the source of a lot 
of the Taliban's political opposition in this election that 
they are doing their best to get to. They don't have political 
parties. They have regional tribal influences, if you will, and 
the Taliban. And they have--we have them shoved down into a 
small area, basically there and sort of contained; and 
hopefully we will eventually eliminate them.
    Al Qaeda, they didn't indicate to us that al Qaeda was a 
big player for funds. In your chart that is possible. If your 
chart is right, it says possible. That is kind of what they 
indicated to us. But it is--the warlords that are up to the 
north--get my direction--northeast that are trying to gain 
political influence are using opium poppy for that purpose.
    But the bottom line is the farmer is just looking for a 
market for his crops. He doesn't have a market. They have had a 
terrible drought for 7 years. He doesn't--what little grain he 
produces, he doesn't have a real great market for it because of 
the situation over there, and he had the market with these 
processors for this poppy. So you can't hardly blame this poor 
guy--and those are poor people--for selling what he can. If we 
knock out the guy that is buying, then we have basically made 
it--it is not a cash crop anymore.
    That looks like to me--and I commend you for what you are 
doing, and I can tell you that I came away optimistic on 
Afghanistan. But when you look at that place, they got major 
challenges over there in that country. I am optimistic because 
I think the President's heart is right, and I think he is 
really--I am very impressed with the man and the people that he 
has around him.
    So, you know, I am very encouraged over there; and I thank 
you for what you are doing. Ultimately, it is going to solve 
the terrorist problem for this country by knocking out the drug 
problem.
    Ms. Tandy. Thank you, Representative Carter. I share your 
enthusiasm and optimism and certainly the recognition of the 
challenges, and I thank you for your support.
    Mr. Charles. Congressman, I just wanted to add a note of 
hopefulness that supports you completely.
    In our meeting with President Karzai, I raised the question 
whether there was a political issue that we should be aware of 
in terms of slowing down in some way. I mean, was there anyone 
encouraging us to slow down on the counternarcotics effort for 
fear that it would have some political effect? We got the exact 
reverse, a firm statement that in no way was any concern going 
to register with him in terms of slowing down the 
counternarcotics effort. He was full bore on it.
    I also wanted to note that, with respect to specifics--and 
I completely support what the administrator has just said, and 
again we are trying to support DEA in every way we can think of 
not only in Afghanistan but to support them from surrounding 
countries to do the same thing, to hit the traffickers, the 
labs, the stockpiles.
    I would suggest that there are a couple of traffickers that 
we know, Bashir Norzi and Juma Khan, that, to the extent we can 
find ways to tackle their organizations and get at specifically 
the stockpiles there, I see no hesitance whatsoever in trying 
to do that.
    I would also note that, on alternative development--and you 
make the point that these are poor farmers, it is true, but I 
would say to you that the margin that they get on the heroin 
crop versus wheat is--basically, they make a dollar on the 
heroin crop, they make maybe half that on wheat.
    And there is also something that people often forget, that 
is that the Mullahs and a lot of the religious sentiment is not 
in favor of them getting deeply involved in the heroin trade. 
It is a survival issue right now.
    If we can provide--and that is part of what my bureau 
does--the alternative development, working with USAID and 
others, if we can get that in behind the eradication effort, we 
will be able to provide them realistic opportunities both in 
income streams and begin to reinforce a culture that probably 
does not support ultimately a heroin economy.
    Also just to note that we are all waiting for the DOD 
guidance. We are looking forward to it, because I think it will 
further support what you are describing as hitting the labs and 
hitting the stockpiles when they are found.
    We are also sending more people in. I am sending three 
people in very, very shortly; and we expect to send six in 
October to reinforce these efforts in Kabul.
    Finally--I will just end there--I think there is a lot to 
what you say, and we are highly supportive of the direction you 
are encouraging us to go.
    Mr. Carter. I realize my time is expired. Just one or two 
more comments.
    I actually think the more we can do to eliminate the heroin 
trade over there the better it is going to make the political 
situation in Afghanistan, not the other way. I think that it 
becomes a player in these elections through these warlords and 
the Taliban.
    Also, I want to say, we flew the highway; and they are--
that is--we are to be very commended for that highway. It has 
changed the nature of a lot of peoples lives in the central 
part of Afghanistan, and that--you are to be commended for 
that. That is a good-looking highway, and you can--we saw a lot 
of traffic on the highway. I understand it has reduced the trip 
from Kabul to wherever it goes by--like from a day and a half 
to 6 hours. That has to make someone happy. So we are doing 
good work over there.
    Mr. Charles. Congressman, you gave us the money to do that.
    Mr. Carter. You are doing good work. Thank you.
    Mr. Souder. Thank you. I wanted to do some followup, and 
Mr. Charles gave me a nice setup. Because part of my concern is 
the criticism coming out of Europe, including the United 
Nations, which is an ironic position for us, was that we were 
inhibiting efforts to go after the heroin trade and were in 
fact sitting on it for other reasons.
    You referred to the fact that you hadn't seen the 
Department of Defense guidance. Supposedly people on the Hill 
have been told that there is a policy of the Department of 
Defense for discovering poppy fields, labs, warehouses and drug 
shipments and that they have a policy of engagement in 
narcotics in southeast Asia.
    You say that you haven't seen that--at the State 
Department, at least. You haven't as the person in charge of 
narcotics. I wondered, Ms. Tandy, have you seen a particular 
document from the State Department, a strategy of engagement?
    Ms. Tandy. I have seen a document from the Department of 
Defense. I am not sure that it is a document that is being 
translated to the theater of operations in southwest Asia. I am 
just not sure if it was a concept document or if it was actual 
direction.
    But the Department of Defense has certainly discussed 
guidance regarding the labs and how the labs are to be treated 
by military when they come upon the labs in the country. I am 
encouraged by what I read in the document, without getting into 
the direction if that is what it was in the document.
    Mr. Charles. If I can add, yesterday I had a conversation 
with senior folks at DOD; and I think we are definitely 
experiencing forward progress, the shift from counterterrorism 
to counternarcotics and an understanding that if we have a 
little additional effort, the opportunity to hit these labs or 
to hit those stockpiles, they will do that.
    I will also mention that I took a minute to talk with some 
of the Marines on the ground in Kabul just to ask them if they 
had the opportunity, if the guidance--which I think is in draft 
form now and will find its way, I have no doubt, shortly to the 
field, if they would--how they felt about that. I will tell you 
that the response was enthusiastically that they would like to 
execute on guidance of that sort, that there would be no 
hesitancy at all.
    So I think we are on the right course. I think it is simply 
a matter of sequencing.
    They were warfighting, catching terrorists. They are still 
doing that. This is something that we would just ask--we are 
all working together to try to get, as you suggest, 
Congressman--toward greater and greater destruction of the lab, 
therefore, the node, therefore, you disincentive the growth of 
the heroin, therefore, you create a stable and noncorrupt 
democracy.
    Ms. Tandy. Chairman Souder, if I could add to that with 
regard to the Department of Defense, I have seen from the 
Department of Defense a real spirit of trying to see where they 
can meet their mission and work with the Drug Enforcement 
Administration in new ways; and among those--clearly, they 
are--these are recent developments.
    The Drug Enforcement Administration has been meeting with 
DOD, with State Department, to try to determine where we can 
enhance our collaboration together. To that end, the Department 
of Defense has made it possible for us to put a DEA analyst 
into Bagram, has opened up for us the opportunity to mine the 
military intelligence on drugs in Bagram.
    They also, in Kandahar, have offered to us the opportunity 
to put an agent in Kandahar for the purposes of essentially 
working with those returning military men and women who have 
been out in country, who have seen some of these labs or 
stockpiles, and essentially conduct after-action intelligence 
before those labs and stockpiles are destroyed.
    What is important to DEA is not only the destruction of 
those labs but equally critically that we get the intelligence 
and information contained in those locations and working with 
the military in Kandahar for the after-action piece of this 
before the destruction will foster both of our aims in that 
regard. We also have been given the opportunity from DOD to 
interview the detainees from the dhows that were seized in the 
Gulf earlier this year, and we are putting together teams now. 
We have interviewed some of those detainees that were not in 
Afghanistan but elsewhere, and we are now putting teams 
together to--both DEA and we have invited the FBI to join us, 
and they will, to conduct additional interviews of the 
remaining detainees from the dhows.
    So I do see some clearly enhanced focus in this area and a 
great deal of collaboration by the Department of Defense. At 
the same time, the DEA is enhancing its operations in 
Afghanistan.
    Mr. Souder. Thank you. I appreciate the specific details of 
that. Part of our job in this committee and the Government 
Reform Committee in general is to make sure that our agencies 
cooperate. And that we don't have like four different nations 
in there simultaneously; the Nation of DEA, the Nation of the 
State Department, the Nation of the Department of Defense, and 
the Nation of the CIA, sharing that intelligence and 
coordinating on the ground and having a joint understanding 
that the military might be going after the terrorists. But the 
terrorists are at least in part getting their money from the 
narcotics; and, by the way, at the very least the weapons they 
are shooting at you were probably paid for, since that is a big 
part of the elicit economy, not by growing wheat but by growing 
opium poppy. If your helicopter is getting shot at, it has 
probably been paid for by some kind of rifle on the ground that 
was from the illicit economy.
    Kind of understanding that we are all on the same page 
here, to differing degrees and priority, let me followup. It 
sounds like you have put additional people in the region and 
you are putting additional people in the region, so I have a 
two-part question with this.
    My understanding is in Pakistan we have had a reduction 
from pre-September 11, from five to six agents and two 
intelligence analysts to now three total. Is Pakistan going to 
be changed as well in the total region? Do you see DEA either 
getting additional dollars or ramping up your presence? And do 
you--if you got additional dollars beyond the President's 
budget request, would you put them in that zone, or are there 
other zones in the world that have similar pressures, Colombia, 
for example, domestic, as every Congressman wants more DEA 
people in his district, including me, that--so we are all 
putting that domestic pressure on. But do you see this as a 
place where, if you got additional funding, it would be one of 
your priorities?
    Last, on the language, when you put people, particularly if 
they get outside of Kabul, sounds like a lot of the time is 
going to be deprogramming our own military guys and their drug 
intelligence to build an intelligence base. But, ultimately, we 
all know to find the labs, to find the distribution systems, 
you have to penetrate organizations, which is partly buying the 
way in and training people from those countries. But also means 
you have to be able to talk to them.
    Do we have an active effort--understanding that, as we have 
heard today, this Afghanistan effort is not likely to be over 
in, say, 3 months, it is not even likely to be over in 12 or 24 
months, are we training people? Do we have adequate people that 
we can put into this zone?
    I mean, let me reinforce one other thing, because I am kind 
of throwing this, but it is all kind of together.
    Meeting with the Afghanistan ambassador to the United 
States the other day, in talking and trying to figure out a 
question we had been discussing earlier in the day about 
whether any of this is moving through China and replacing some 
of the Golden Triangle. Basically the response was those would 
be new routes to work through China. Yes, we could probably do 
it, but it is so easy right now to move through the ``stans,'' 
and it is so easy to move through Turkey, they don't need to 
find new routes. The old routes are working fine.
    The question is, are we preparing--even if we ramp up DEA, 
do we have people who can work undercover, who can break into 
these often very closed societies? And what are some of the 
challenges you are looking at with that?
    Ms. Tandy. Chairman Souder, with regard to our ability to 
work undercover, develop the sources that we need beyond 
debriefing returning military forces and mining the military 
intelligence, we have not in the past been able to do that as 
effectively as I see our opportunities now. Part of that is 
because, essentially, we are confined to the bunkered quarters 
of the U.S. Embassy within Kabul and with really an inability 
to move around due to the lack of sufficient security.
    That picture is changing for us. We have, even despite 
those obstacles, during the past year in Kabul been able to 
develop sources through our work within the country with a 
variety of partners. I see that--while we have developed some 
sources, I see that improving immeasurably as we are about to 
be able to move around within the country.
    You are right. That is essential to penetrate the 
organizations. It is essential for us to gather our own 
intelligence and to combine that with what other information 
has been obtained by our coalition partners, our military 
partners and others. So I am actually quite optimistic that we 
are going to see a much clearer intelligence picture and that 
DEA will be able to conduct more traditional intelligence 
gathering than we do on our investigations.
    With regard to the funding priorities, there is a--we have 
within DEA really done a scrub of all our placement of agents 
and analysts and staff positions around the world to determine 
whether where they were placed originally still makes sense 
today as compared to the threat, and where the threat picture 
changes do we need to shift some of our existing resources in 
the world to new places? That has resulted in what is referred 
to as a right-sizing proposal, which is a request that is 
pending before our Appropriations Committee.
    I understand that is--it looks like that will be moving 
very shortly in a favorable way. In that proposal, we have 
sought the movement of a number of positions into the southwest 
Asian region to support Operation Containment.
    As I said, the enhanced staffing for our efforts, our new 
efforts in Afghanistan are essentially coming from borrowing 
from existing positions elsewhere and detailing those into the 
country. The two people I mentioned, the attache and the deputy 
in Kabul, are permanent positions.
    We originally sought a total of six positions for the 
country; and because of security when the office was created, 
we were only able to staff it with two. Now we will be able to 
get up to the six, but we are borrowing from other existing 
sources to do that.
    So, to answer your question, we are streamlining our 
resource needs so that we match our resources to the current 
threat all around the world; and if additional funding is 
provided, clearly because I am borrowing to supply the 
necessary staffing to this region, those positions, a number of 
those positions would go to this region.
    We also have positions in Pakistan that we were not able--
that we are not able to fill currently. There are six of them 
in Pakistan. They are important. But we have not been able to 
fill those because of security issues in Pakistan, which leads 
me to a prior question that you posed, that Assistant Secretary 
Charles answered, that I would like to address as well, and 
that is our relationship between the Drug Enforcement 
Administration and INL.
    We have a very close working relationship. Obviously, in 
the embassies it is the NAS officer and DEA who are trying to 
work through DEA's funding means within the country to 
effectively combat the narcotics in any given country.
    I have spoken directly with Assistant Secretary Charles 
about some of our funding request issues. He has been 
responsive. He has been focused on DEA's needs to effectively 
combat counternarcotics, certainly in southwest Asia, certainly 
in Afghanistan, as well as the rest of DEA's presence around 
the world.
    I am very pleased with our working relationship and 
optimistic that our funding needs will receive the kind of 
attention from INL and certainly from Assistant Secretary 
Charles that DEA has been hoping for and is seeing.
    Mr. Souder. One of the problems when you detail people to a 
project like Operation Containment is that there is a lot of 
movement, and you don't get the people who are getting anchored 
into their countries who built and developed the sources over 
time.
    Many times when I talk to agents in South America, even if 
they haven't been in Colombia the whole time, they have been in 
adjacent countries, they have built up an expertise in network 
and kind of know the enemy. Do you see longer times of service 
or building in people? I know it is a tough place to serve. But 
if we don't build that network of DEA agents with experience 
there, I am not sure we will ever penetrate.
    Ms. Tandy. Chairman Souder, DEA has some of the most 
courageous men and women who serve under the harshest 
circumstances. In the last month alone, I have had agents 
ambushed, shot at, and engaged in a gun battle in Haiti. I have 
had agents approached and almost the subject of home invasions 
in other countries and evacuated them.
    We are often serving in harsh conditions with great moral 
courage. And it is not the living conditions in Afghanistan. It 
was really having the ability to move around effectively within 
that country, which requires phenomenal security arrangements.
    With regard to your concern about the lack of in-depth 
appreciation for the country situation as a detailee, I 
understand completely your concern in that regard. It would not 
be my preference to have detailees, but that is the only way 
that I can get resources into that country quickly.
    As I said before, I see, feel, and sense a great urgency 
for us to get on the ground there now that we can move around 
and to move forward; and the only way I can meet that need is 
to do it with--four out of the six are detailees, two are 
permanent.
    The need for the kind of permanent resource commitment, and 
understanding and appreciation for the country situation in 
DEA's enforcement efforts there will have to come through a 
traditional approval process that will take some time to work 
its way through, both in terms of--within the administration 
and the State Department; and the next stop would be, 
obviously, through OMB and ultimately to the Hill. Those stops 
take a little time. So this is my immediate approach to 
addressing our needs, with that longer range funding picture to 
go through the appropriate procedures.
    Mr. Souder. Thank you. I am going to come back with some 
more questions to you.
    I want to yield to Mr. Cummings.
    Mr. Cummings. I want to go back to this whole issue of 
training the police. You know, we have had a situation--I mean, 
this committee--subcommittee has heard testimony with regard to 
Mexico and how we had people even in high positions who were 
corrupt. And when you have--when you are dealing--with regard 
to drugs and folks accepting bribes.
    It seems like, you know, if you think about Afghanistan, 
basically you are talking about a country being reborn. It 
seems to me that I am sure you have a lot of people who want to 
see their country do well, probably the vast majority. But you 
also have--I don't know how much these policemen are paid. How 
much are they paid? I mean, compared to--I know it is relative, 
but compared to other folks in Afghanistan.
    Mr. Charles. I will get you an exact wage. But I will tell 
you that they are not well paid. I mean, they are well paid 
from Afghan standards, but they are going to be subject to the 
same pressures that law enforcement anywhere else in the world 
is subject to in terms of the power of drug money.
    Mr. Cummings. Do you think that because--I mean, do you 
think that because it is, again, a country being basically 
reborn, is that--do you think that helps to prevent some of 
that corruption or does--and you can look at it from a whole 
other angle and say, well, this is a new country. So people 
believing that there is discord, believing that we are still 
trying to get administrator, prosecution, and judges right, 
they might say, well, then they have these folks who are in the 
drug world saying, look, you know, the risk is not that bad. I 
mean, do you all--how do you deal with that? I mean, do you all 
see that as a problem?
    Mr. Charles. Let me give you what State does, and let me 
give you my analogy of a gut sense of an answer to that 
question; and with respect to Congressman Souder's question, as 
with respect to yours, I am going to speak more bluntly than 
probably most people do.
    I recently spent time also in Baghdad. I spent more time 
with the recruits there than I got to, given the time I had in 
Kabul. We are just coming off the ground. There are about 3,000 
trained police in Kabal, an additional 1,400 that the Germans 
have trained, and we are shooting for 20,000 again by June.
    But, by way of analogy, I talked a little about the whole 
notion of what it means in Baghdad to folks who are also going 
through police training, young people coming through to become 
professional police officers in an environment and in a culture 
where you are simultaneously teaching the culture at the same 
time and trying to empower them to make fullest use of their 
freedom and to preserve it against the onslaught of drug money 
as well as terrorism.
    I was amazed at the enthusiasm of these young police 
officers. I found that--I asked, are you learning? And I got 
lectures back about how democracy works. I was being told about 
what they foresaw for the future of their country. I find while 
there are a number of factors that are different among and 
between the countries, I think you find that you are absolutely 
right. Afghanistan is in a moment of rebirth; and in that there 
is a sense of enthusiasm, despite poverty, despite the odds 
that lie out there against them.
    I guess I would say to you that I hope, because the 
training also includes this component, that the notion of 
professionalism and of standing their ground for noble reasons, 
as long as they have the right weapons and they have the right 
training and they have the right protection and they have the 
right sense of esprit d' corps, we will stand with them.
    I will tell you, I don't think there is any country on the 
face of the globe that doesn't face this threat, the power of 
drug money. I think that we have to be duly on guard. But, you 
know, we are actually trying to develop a way to monitor the 
professional futures of these people.
    I was just talking back at the Department with someone 
about how we can monitor these people over an extended period, 
give them added training, give them new specialized training as 
they may need it, and reinforce them in time.
    So the answer to the question is, we don't know yet. But I 
will tell you that what I have heard from the ground and from 
people who are in contact with those trainees is a sense of 
optimism.
    Mr. Cummings. Administrator, do we--can we trace this drug 
money? I mean, do we have a pretty good idea that it is going 
to terrorist organizations, a sizable amount of it? Can we 
actually trace that?
    You may have answered this while I was out of the room. I 
don't know.
    Ms. Tandy. No, actually I didn't get that question, but it 
is a good question. We cannot trace that yet. What I have found 
is that we need to do much more on the drug money front in 
terms of investigating it to determine those links, to trace 
the money, to stop the money, to seize the money, and share it 
with those countries that help us.
    With the situation that we have here in terms of drug money 
in the United States is that $65 billion in U.S. dollars 
changes hands for drugs in the United States every single year. 
All law enforcement, local, State, Federal, combined, takes out 
less than $1 billion out of that $65.
    We are, in DEA, in a hard press, attacking the drug money 
side in a way that we have not done in a long time. I have 
established in headquarters a new operation, a new office 
section to attack the drug money side. Every division now has 
drug money units in it within DEA. We are devoting resources to 
doing exactly what you have asked about, which is, are we 
tracing that drug money?
    I have a management review team that is leaving on Saturday 
for southwest Asia, both on the drugs and the money side, to 
determine what more we can do in that region to answer your 
question, to establish these links and trace that flow of the 
money from heroin in the region. They will be there reviewing 
the entire region, Afghanistan, and the entire region of 
southwest Asia to determine how we can step up our efforts on 
the money side.
    Mr. Cummings. Just a last question. The chairman and I 
guess our entire committee, when we began to form the homeland 
security department, particularly after September 11, and all 
of our concerns that came out of that horrific event, one of 
our biggest concerns was whether we would--because we were so 
busy trying to fight terrorism, whether the fighting of drugs 
and other crime--in your instance drugs--would be diminished. 
In other words, that it would be--that because our emphasis was 
so--that we wanted to make sure that another September 11 never 
happened again.
    I was just wondering--you know, I just heard you talk about 
borrowing, and I was just wondering, do you feel that you 
have--that you have enough to do what you have to do? I know 
Mr. Charles is sitting right there, and I know you have said 
some very kind things, but he is the kind of guy who can take a 
punch. But I was just wondering, because this is something that 
really concerns us.
    You know, in my neighborhood, they don't worry so much 
about terrorists over in Afghanistan and other places. They 
worry about terrorists right in their neighborhoods. They have 
terrorists every day. They can't even come out of their houses. 
They hate to come home, because they don't know what drug 
addict has broken into their house before. So they are 
literally terrorized every day, and they feel it.
    So I was just wondering, do you feel comfortable--and, by 
the way, congratulations to both of you--with your situation?
    Ms. Tandy. I do. The administration and the Congress have 
been very generous with DEA. The administration has sought 
additional agent positions for DEA. We received, as a result, 
216 new positions for 2003. We received another 300 plus in 
this latest omnibus appropriations bill that was passed. And we 
are scheduling--we are hiring and we are scheduling training, 
basic agent training, as many classes as we can accommodate at 
our training facility as fast as we can do them.
    But that takes time to staff up, to hire. It is a 16-week 
training course that basic agents go through. That is after the 
very rigorous hiring selection process. I will tell you I do 
have a hiring preference for those with financial background, 
to again beef up what we are doing on the money side.
    So we will get there. It just takes some time. We do have 
funding and positions to do that, but it is just going to take 
some time to get there.
    When I talked about borrowing positions, it is really more 
from the standpoint of the approval process and just the 
natural length of time that is required to get through the 
various stages of approval to move permanent positions into 
place. So the borrowing is really more addressed to the short, 
immediate term while we go through the longer term process.
    Mr. Cummings. Thank you very much.
    Mr. Charles. If I can add a quick footnote to that, and 
that is, Congressman, you don't hear very often stories in the 
Federal Government of people and organizations that work 
together effectively; and, frankly, having been an oversight 
guy, I made a lot of the effort to point out when that didn't 
happen. I can give you concrete examples here where DEA and 
State I think are working together in some ways better than 
they have ever worked together. We are about to help them, DEA, 
work through, organize and pay for a big conference in Peru 
dedicated to the internal and DEA sides working together on 
regional counterdrug issues. We are working collectively or 
together on an initiative that relates to Mexico, and it 
involves dollars.
    By way of example,and I am going to break some glass here, 
very often I actually wade back in on embassies, because I 
think that is my job, to say DEA needs to get into the field. 
They are making a bona fide statement that they cannot prowl 
the corridors and get the information they need. They need to 
be out in the field, so I want you to work with them to help 
them get out in the field.
    Dollar for dollar, I think there is an enormous amount of 
cooperation here, and a good example is I pulse from the 
reverse universe. I go back to what they call NAS officers, who 
are the narcotics affairs section people in these embassies who 
are working for State, and I say, what is your relationship 
with DEA? How is it working? And they are coming back with 
better answers than I ever heard when I was asking those 
questions before.
    Mr. Souder. Before yielding to another drug warrior, Mr. 
Ruppersberger, who usually asks this question and probably will 
followup on what we just started here, which is really great to 
have two colleagues from the other side of the aisle really 
pushing us on the drug way, to say do we have adequate 
resources, I want to point out that Director Tandy did say that 
if she got additional funds that more of these positions could 
be permanent and there would have to be less borrowing. And 
that we are likely--while no administration that I have ever 
met goes to Congress and says, yes, my President's budget is 
insufficient, nevertheless, we can certainly find--if we found 
more money, how would you use it and what things can be done? 
Then we as the appropriating branch can help address that.
    With that, I would like to yield to Mr. Ruppersberger.
    Mr. Ruppersberger. I want to make a couple of statements, 
and I will try to bring them into questions.
    First, just as Congressman Cummings was talking about as 
far as the drug interdiction generally, my concern with all of 
the resources that we are putting into terrorism, as we should, 
and then the war in Iraq and Afghanistan, that is something 
that we have to deal with. But I am concerned about the 
resources, both on a Federal, State and local level, whether--
if you look at the big picture right now, drugs are still the--
probably the worst issue we deal with in our society. I think 
90 percent of all violent crime is still drug related.
    Now our job here in this committee and in Congress is to 
try to oversee and provide resources; and some of the things 
that I have seen just--specifically just with DEA, the Afghan 
situation is a very difficult situation. I was also just last 
week in both Baghdad and Afghanistan and met with Karzai. When 
did you meet with Karzai?
    Ms. Tandy. Two weeks ago.
    Mr. Ruppersberger. Well, this was last week; and that 
country has a long way to go. The infrastructure--I mean, the 
fact that they were under different control with Russia and 
everything else. My concern is that Karzai is still around. 
Because, as you saw, if you met with him, he has tremendous 
security. And when we--and he does--I think one of the reasons, 
and I hope that he wins his election, is because he has 
relationships with the warlords and with other people in the 
country.
    When we talked with him about the issue of what is 
happening with heroin again, his concern was that he knows it 
is a problem. It undermines his ability just to create an 
economy for jobs. Because the money is just coming in as far as 
heroin is concerned.
    But my thought, after I left there, it is going to take a 
long time, and we are going to have to have a lot of patience 
to deal with the issue of turning these warlords and farmers 
and taking that product--and whether it is eradication, but 
then you have to put something else in there. With all of the 
political issues that are there, it is going to be difficult.
    I think the way we get in, though, is our fight against 
terrorism. Because we know that a lot of money and focus is 
going in that arena.
    By the way, Secretary Charles, I would agree with you also 
on the teamwork approach. Both being in Afghanistan and Iraq 
and some other countries, I have never seen the teamwork in all 
of the different agencies coming together. I mean, from the CIA 
to the military to the DEA, the Secretary--I mean, it is all 
coming together, and there is one focus.
    The only way we get out of those countries, though, is to 
train their police officers and their defense for security. We 
had our delegation. There were six of us from the Intelligence 
Committee; and we made sure, even though they didn't want us to 
go out into the red zone, that we went and laid a wreath on 
behalf of those 23 police officers in Baghdad that were killed.
    Because the strategy has changed--and you probably are 
aware of this--that they are not only going after our 
coalition, the United States and Great Britain, but also they 
are trying to put the pressure and kill and do whatever they 
can to these police officers.
    We probably had about 300 people in the academy in Iraq, 
and these individuals were so happy that we were there they put 
their hands over their hearts. I think that the insurgents, 
along with the outside al Qaeda groups that are now, say, just 
in Baghdad and also in Afghanistan, they are making a mistake. 
Because when they start killing Iraqis, Iraqis are getting 
upset about it. Their resolve is strong.
    Now let's get to some questions.
    First thing, I think one of the things with Afghanistan, is 
that the good news for the United States is that almost all of 
the heroin from Afghanistan is going to European countries. I 
think most of ours comes from Mexico and Colombia. Am I 
correct?
    By the way, Colombia is an example of us training 
Colombians to take care of their own problem. They are getting 
a lot stronger. They are getting better results.
    I heard over there, because I asked questions about the 
issue of drugs, that Great Britain and other countries could 
probably do more than they are doing to work with us to help 
their problem. It is more of their problem than our problem 
right now. How would you respond to that?
    Mr. Charles. Well, let me say we discussed this briefly 
earlier. I think that what we are doing, what I am doing 
personally--and I have engaged with them both on U.S. soil and 
abroad, particularly on Afghanistan, to try to get them to--all 
of us to work together in a more aggressive approach. Let me 
say that there are things that the British are doing that they 
are doing exceedingly well, some of which we can't talk about 
in this room. There are other things that we could be doing a 
lot better together on.
    As you probably know, in Afghanistan, the counternarcotics 
piece is being worked with the British, the police training 
piece is with the Germans, and the justice sector reform and 
the building of courthouses and the training is being worked 
with the Italians. One of my priorities is to bring them more 
on board and have us drive harder at the target.
    Mr. Ruppersberger. Because I saw that as an issue, that we 
need--I mean, the Europeans are the victims of Afghanistan 
right now more than we are, would you agree? Other than the 
issue of money and terrorism.
    Mr. Charles. I do agree.
    Mr. Souder. Supplemental to his question, because you put a 
specific dollar amount on Britain before, do you have a dollar 
amount for the Germans or French and other European countries?
    Mr. Charles. Yes. One of the things that this--one of the 
charts that I have here is strictly counternarcotics. I can get 
you the other ones as they relate to justice and to police 
training. The Germans are being very--I think very cooperative 
and very aggressive. In fact, so are the Italians.
    Mr. Ruppersberger. How about the French?
    Mr. Charles. Yes. It is a varying--everybody contributes 
what they can contribute. Or that has sort of been the history 
up to this point.
    One of the things that I am suggesting and pushing is that 
people contribute more and we drive harder at these targets.
    Now in the justice sector component, it is a smaller 
overall piece. In other words, $10 million we are driving at 
the justice sector. So the Italian piece relative to that might 
be proportionally more but dollars less.
    The police training piece we are pushing very hard for. 
That is a dollar-intensive effort. But let me say to date we 
have trained again about 3,000, they have trained about 1,400. 
There is a concerted effort to ramp up on both sides. So far as 
I can tell, we are working closely together. I talked to them 
briefly in Madrid about that when we were on another topic.
    But let me just give you some numbers. I gave you the U.K. 
numbers, and those are fairly large. But Australia, we have 
$261,000; France, $230,000; Italy, $1.6 million; Canada, 
$165,000; Germany was $365,000. We also have Canada, Ireland, 
Japan, Austria, Netherlands. What I am telling you is this is 
definitely a mutual effort.
    Mr. Ruppersberger. The good news I saw with Afghanistan 
versus Iraq is we have more coalition in Afghanistan. That 
shares the load, including putting our own people at risk, too.
    Mr. Charles. That is right.
    Mr. Ruppersberger. I see the red light.
    The political situation has to be resolved. They are 
talking about elections and whatever in Afghanistan. I don't 
see this production situation in Afghanistan alleviating itself 
for a long period of time, because the first thing you have to 
get the political control, the security and whatever.
    Two things I want to say. First thing, what would our more 
long-term goal be to deal with the Afghan heroin issue? I know 
eradication and all of those issues, but I think if you raise 
expectations and you don't make them, that is even worse. So we 
have to be realistic.
    Second, I am just concerned again that we take--that we 
don't take our eye off the ball in Colombia and Mexico, Burma, 
some of these other hot spots that we know that we have to deal 
with, also. We are focusing a lot on terrorism, but there is a 
lot that is happening in other parts that if we don't keep our 
eye on the ball in some of those other hotspots--South America 
is a perfect example. If we don't keep our eye on the ball, are 
we OK globally? Because I think if you talk to most agencies 
throughout the world, including intelligence agencies, they 
will tell you that most of the focus now is over in the Iraq 
and the Afghan area.
    Mr. Charles. Why don't we both give you an answer? I know 
the administrator has something to say, also.
    Ms. Tandy. On the long term--in the short and long term on 
the enforcement side of that, I can tell you where the focus 
is. It is to attack the stockpiles, the labs, go after the key 
trafficking organizations, both in the region and----
    Mr. Ruppersberger. Is this long term in the whole world or 
just Afghanistan?
    Ms. Tandy. I am talking both in the region--in southwest 
Asia as well as within Afghanistan. We are identifying what has 
commonly been referred to in the past as kingpins. We are 
identifying trafficking organizations within----
    Mr. Ruppersberger. Not the farmers as much, the traffickers 
once they are getting--that really----
    Ms. Tandy. Trafficking organizations.
    Mr. Ruppersberger. Follow the money.
    Ms. Tandy. Yes, and in terms of the region as well, those 
that are transporting and trafficking, both in terms of the 
drugs and the chemicals that are being used at the labs to 
actually process the opium into heroin, the long-term piece of 
that has already started now, and we are working closely with 
our British counterparts in the country.
    On the enforcement side, the U.K. has been a very strong 
leader, and DEA has a very strong partnership with the Brits in 
attacking these areas of the counternarcotics issue.
    Regionally for us, it is Operation Containment until INL 
and the coalition pieces come together in terms of standing up 
a real police force and standing up prosecutors and judges and 
prisons to effectively house traffickers at this level. It is 
Operation Containment attacking in the surrounding countries 
the flow of heroin and the money and the chemicals out of 
Afghanistan that is going to further cement our enforcement 
success in that region over the long term and the short term.
    Mr. Ruppersberger. But are we taking resources away from 
what affects the U.S.A., the Mexico and the Colombia area? I 
mean, that is what worries me.
    Ms. Tandy. I can tell you for the Drug Enforcement 
Administration we are not taking any resources away from 
Colombia and Mexico.
    Mr. Ruppersberger. That is good to hear.
    Ms. Tandy. We have a right-sizing proposal that I mentioned 
earlier in my testimony that actually enhances our position in 
those countries.
    With regard to the source heroin, source countries for the 
United States which you asked about during your opening 
statement, it is Colombia, by and far the largest heroin supply 
source for the United States, at about 80 percent. Afghanistan, 
the southwest Asian region is No. 2, with Mexico closely on the 
heels of that. And southeast Asia----
    Mr. Ruppersberger. Coming to the United States?
    Ms. Tandy. Coming to the United States.
    Mr. Ruppersberger. It is Afghanistan No. 2?
    Ms. Tandy. Well, we can't isolate it out as Afghanistan.
    Mr. Ruppersberger. Because all of the documents I have read 
and research, including a lot that I have over there, said the 
opposite, that the two major areas were--in the briefing 
information--were Mexico and Colombia for the United States, 
and Afghanistan was all of the European areas but not the 
United States.
    Ms. Tandy. Well, I can tell you that from our programs 
within DEA testing the signature of heroin coming into this 
country to determine its regional source as well as the 
purchase of domestic samples of heroin and determining where 
that is coming from geographically, what we have seen is that 
the No. 2 is Afghanistan, excuse me--southwest Asia, to include 
Afghanistan.
    Mr. Ruppersberger. Could you get me that information? 
Because I tell you, we have a committee that was getting 
briefed to the contrary; and I will get the documents. I would 
like to see that because we got to get our facts straight if we 
are talking about helping and authorizing.
    Ms. Tandy. I think part of the confusion is that there is 
only a hair worth of difference between southwest Asia as a 
source and the volume coming out of Mexico. It is a percentage 
point at best difference between the two.
    The actual numbers we are not going to have until September 
when we finish analyzing the samples from those two programs to 
further isolate precisely where that standing is. But I will be 
delighted to give you the information we do have to date.
    Mr. Ruppersberger. I will try to get you a copy of that 
briefing so you will see what we had.
    Mr. Charles. Congressman, if I can respond to your long-
term versus short-storm and long-term overall strategy. In 
Afghanistan, the strategy, as it should be and as it is all 
over the world, is to put these countries in the driver's seat 
as democracies controlling their own problems and ultimately 
bringing them down to a manageable level so that we back out. 
We have helped them to create the democracy, to stabilize the 
environment, to knock out the drug trade, to wring it out, if 
you will, from the democratic process, so that it doesn't 
infect the process.
    The same is true in Colombia. I can guarantee you that we 
are not diverting anything. In fact, quite the reverse. We have 
an Indian region initiative that we will talk about at some 
other future date in which we are spending about $1 billion 
very directly on stabilizing, regionalizing and ultimately 
creating more of a drug-free environment there.
    We fly against the crops there. We are building judicial 
institutions there. We are doing many, many things there, also 
supportive of domestic law enforcement there.
    In Afghanistan, in Iraq--and you mentioned Iraq for 
stabilization. We have $800 million dedicated to the 
proposition of this bureau, to the proposition of training the 
police. We are it in Jordan, and we just built that academy, 
and we are doing it also in Baghdad. That academy that you were 
at is actually managed by INL with MPs also teaching there.
    In Afghanistan, the end game is similar. It is freedom, it 
is democracy, it is a self-administered set of programs.
    But the thing I think that is important to keep in mind 
is--and this is where in many ways you are seeing both halves 
of the canoe here to get us across the lake--the law 
enforcement community, the U.S. law enforcement community, 
which is what the administrator has been talking about, throws 
the pitch out to the field. There also has to be a catcher out 
there somewhere. That is what we do. We help the countries to 
be able to absorb, interact, have a high-integrity law 
enforcement community that they can interface with.
    One example that I feel it is important to give, because it 
was asked by the chairman a moment ago, in terms of the support 
and containment strategy, is there any good news, bad news in 
the ability to execute this from the catcher's point of view, 
from the working-in-these-countries' point of view. I will tell 
you the bad news is, as it relates to Afghanistan, is that 
there is very little law enforcement capacity in these 
countries that surround Afghanistan, arranging broadly. 
Therefore, every effort, whether it is intelligence sharing, 
whether it is execution of finding things and destroying them 
or running down traffickers or prosecuting them, all of that is 
something we are building right now. The anticorruption 
efforts, all of these fit together like pieces in a jigsaw 
puzzle. We are desperately trying in each of those countries to 
ramp that up. Since I have been there, it has become, I think, 
an added priority.
    In Pakistan, though--because I think I don't want to leave 
you with a wrong impression. In Pakistan, I think we are 
getting significant cooperation; and I want to tell you how 
significant. We fly a number of aircraft in there in support 
of--or we have them being utilized with the antinarcotics 
police that work in Afghanistan--in Pakistan. They have been 
conducting aerial surveillance. They have been working on 
counterterrorism activities, doing medivacs, rescue operations 
all related to the border. We have antinarcotics forces in--the 
antinarcotic force in Badakhshan has increased operations 60 
percent over 2002.
    Nationwide, heroin seizures on INL-supported programs are 
224 percent up. Opium seizures are up 125 percent; 63 percent 
increase in seizures in Badakhshan itself. We talked about the 
road earlier, 431 kilometers, which allows law enforcement, 
antiterrorism forces, antinarcotics forces to actually get into 
country.
    We have 80,000 acceptable 10-print finger cards which gives 
us a program that didn't exist before. Pakistan has destroyed 
4,200 hectares of opium poppy in 2003.
    So there are certainly positive pieces of news as it 
relates to the countries surrounding Afghanistan. But the issue 
is a big one. I would just tell you on the dollar side, the 
question about could more be done, the answer is, I think this 
is--these are all locations in which more could be done.
    I think that the one thing to keep our eye on is it is not 
as if something shifting from one priority to another, from one 
region to another. It is the fact that--I think you put your 
finger on it, Congressman--that counternarcotics in these 
places has the potential to disrupt democracy, to fund 
terrorism, and to ultimately diminish the security that we have 
back here.
    We lose, as the administrator I think alluded to earlier, 
thousands last year, I think the CDC said 21,000 young 
Americans died at the hands of drugs. We cannot afford that 
kind of an effect in this country. That is why we have to be so 
aggressive abroad in trying to turn the clock back and get this 
back, roll it back.
    Mr. Ruppersberger. OK. Good.
    Mr. Souder. Thank you.
    I want to say for the record that on Tuesday we are having 
a hearing on the Andean region, and the Department of Defense 
will be here, in addition to the Colombia--focused on Colombia, 
but also Peru, Bolivia and Ecuador.
    Because, as you heard from a number of us today, we are all 
very concerned about Afghanistan. We're all very concerned 
about Iraq, for multiple reasons, and particularly the heroin 
problem, that 7 to 10 percent coming into our United States. 
But we don't really know from all of the signature problems 
precisely what is doing it. Obviously, if Europe didn't get the 
Afghan heroin, we would see another explosion out of the Indian 
region, because that market would also increasingly supply 
Europe.
    We have the interconnections that we need to--but we don't 
want to forget both our domestic and our Andean area which is--
that and Mexico are the primary suppliers to us. So our 
committee will stay focused on those areas even as we do this.
    I wanted to make sure, because I probed a little bit with 
Director Tandy, but I wanted to ask Mr. Charles, too, that if 
you had another hundred million, would you be able to use it in 
this region? Also, precisely what did you mean in your 
testimony when you said that you reprogrammed $50 million for 
accelerating success in Afghanistan? Where did that come from?
    Mr. Charles. Let me answer the second one first, and then--
that $50 million actually that I was talking about was the 
supplemental. The $170 million that I indicated was actually 
for police and justice sector programs in Afghanistan. The $50 
million is what the U.S. Congress gave us.
    Mr. Souder. So when your testimony says, to which the 
administration added $50 million in reprogrammed funds, that 
didn't necessarily come from your department. That could have 
come from other parts of the government?
    Mr. Charles. I will get back to you, but I think it was 
supplemental funding. I don't think it was reprogrammed away 
from another area, but I will come back to you on that.
    The answer to your question about what would you do with an 
additional $100 million, we are not asking for more money right 
now. But I would tell you that there are parts of the world in 
which that money could be highly--if you said regionally what 
would you do with it, I would put immediately $40 million of it 
directly into Afghanistan right now.
    We are driving hard on the eradication piece, but, as the 
other Congressmen have indicated, it is necessarily targeted. 
We are only going to be able to hit--and I want to keep 
expectations at this level--10 to 15 percent of the overall 
crop this year. That will send a strong signal, but you can do 
more. You can also do more, I think, on information sharing, 
and there are a number of other areas. So I would probably put 
$40 million of the hundred there.
    In Pakistan, we have a crying need for some additional--I 
think it could be absorbed, let's put it that way--an 
additional $40 million probably.
    Then with the remainder, I think probably southeast and 
southwest Asia are critically important areas. Turkey is a 
critically important area. There is no question that I think we 
can do more in each of those areas. If the question is, could 
it be absorbed, the answer is, absolutely, it could be 
absorbed.
    I also want to note that very often in this we get in the 
mindset or the impression that somehow we are just sitting in 
place spinning our wheels against a problem that continues to 
blow at us, and we are never going to go forward. I take a very 
different point of view. I am absolutely committed to the idea 
that in each of these places, Afghanistan and Colombia in 
particular, there is a real end game and that real end game 
relates to both counterterrorism and counternarcotics, and you 
get them down to a level where it is manageable indigenously 
and with multilateral international support as and when needed.
    I think one of the things that we forget is--I was in 
conversation just yesterday with an ambassador from a foreign 
country, and I was trying to explain that in this country there 
was a fellow by the name of Elliott Ness. He took a long, hard 
view at Al Capone and organized crime in this country, and he 
went after them with all of his heart, and he helped to beat 
them.
    That is what we are trying to do in these places, bringing 
crime, terrorism, narcotics down to a level in which it is 
manageable in the way that we manage crime elsewhere. We will 
never eliminate crime from Los Angeles or anywhere else in the 
world. We will get it down to a level where it is manageable. 
That is our end game in places like this.
    Mr. Souder. I appreciate your patience with us. I have one 
other question, because you have been, appropriately, very 
cautious about the links between al Qaeda and the drug 
terrorism, although we have seen links with other terrorist 
organizations. But you had specific references in your 
testimony to these real major operations in Turkey where you 
said, in 2002, we got as much as all of--in one bust all of 
2000. That, in Europe, your best evidence that you can sort 
through were these--because both of you stated in your 
testimony that we want to break this stuff up in Afghanistan 
and others while we are dealing with maybe regional drug lords 
before this really explodes again and dominates and prohibits 
democracy from flourishing in Afghanistan and rebuilding the 
country. It is what President Karzai says. It is what the 
former king says.
    That is an extraordinary amount of money. Somebody is 
making a lot of profit when you have $1 billion takedown, some 
phenomenal number you said, on the heroin.
    Ms. Tandy. In the United States, it is $65 billion a year.
    Mr. Souder. Also, the one big bust in Turkey where you 
found the stockpiled stuff, were the busts in Turkey--were they 
just profiteering? Were they early signs of a large cartel? 
Were there any signs of those people being on a watch list? 
What type of organization is that big that they would have in 
one stockpile that much?
    Ms. Tandy. I don't have the details at this point to 
provide to you. I am not sure if the investigation is still 
continuing there. So, with your permission, what I would like 
to do is get back to you with as much as I can provide to you 
with regard to those details.
    Mr. Souder. I would really appreciate that.
    Because one of our challenges, without disclosing too much 
from your agents, as our former staff director and your now 
employee, Chris Donesa, could testify as well, when we were in 
Europe we heard that one of the problems we have with 
organization law in Europe is that we can't follow this stuff 
through because you can't continue to see how the stuff moves 
in the finances and through the organizations. Therefore, when 
sometimes we take it down in Turkey or places before it gets 
into the distribution network, we can't see. We have 
assumptions that it may have been going to some of the al Qaeda 
networks in Europe, but they are assumptions.
    We are being very cautious about what we actually say, 
because we have some legal problems that we have to address 
with Europe. If the heroin is being consumed there, you would 
think that they want to help us with some of this information.
    But anything you can give to the committee would be 
appreciated. Do you have anything you want to say?
    Thank you very much for your testimony and look forward to 
continuing to work with both of you. Thank you for your 
leadership, and we will continue to work on a close basis.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Tom Davis and additional 
information submitted for the hearing record follow:]

[GRAPHIC] [TIFF OMITTED] T6524.023

[GRAPHIC] [TIFF OMITTED] T6524.024

[GRAPHIC] [TIFF OMITTED] T6524.025

[GRAPHIC] [TIFF OMITTED] T6524.026

[GRAPHIC] [TIFF OMITTED] T6524.027

[GRAPHIC] [TIFF OMITTED] T6524.028

[GRAPHIC] [TIFF OMITTED] T6524.029

[GRAPHIC] [TIFF OMITTED] T6524.030

[GRAPHIC] [TIFF OMITTED] T6524.031

[GRAPHIC] [TIFF OMITTED] T6524.032

[GRAPHIC] [TIFF OMITTED] T6524.033

[GRAPHIC] [TIFF OMITTED] T6524.034

[GRAPHIC] [TIFF OMITTED] T6524.035

[GRAPHIC] [TIFF OMITTED] T6524.036

[GRAPHIC] [TIFF OMITTED] T6524.037

[GRAPHIC] [TIFF OMITTED] T6524.038

[GRAPHIC] [TIFF OMITTED] T6524.039

[GRAPHIC] [TIFF OMITTED] T6524.040

[GRAPHIC] [TIFF OMITTED] T6524.041

[GRAPHIC] [TIFF OMITTED] T6524.042

[GRAPHIC] [TIFF OMITTED] T6524.043

[GRAPHIC] [TIFF OMITTED] T6524.044

[GRAPHIC] [TIFF OMITTED] T6524.045

[GRAPHIC] [TIFF OMITTED] T6524.046

[GRAPHIC] [TIFF OMITTED] T6524.047

[GRAPHIC] [TIFF OMITTED] T6524.048

[GRAPHIC] [TIFF OMITTED] T6524.049

[GRAPHIC] [TIFF OMITTED] T6524.050

[GRAPHIC] [TIFF OMITTED] T6524.051

[GRAPHIC] [TIFF OMITTED] T6524.053

[GRAPHIC] [TIFF OMITTED] T6524.054

[GRAPHIC] [TIFF OMITTED] T6524.055

[GRAPHIC] [TIFF OMITTED] T6524.056

[GRAPHIC] [TIFF OMITTED] T6524.057

[GRAPHIC] [TIFF OMITTED] T6524.058

[GRAPHIC] [TIFF OMITTED] T6524.059

[GRAPHIC] [TIFF OMITTED] T6524.060

[GRAPHIC] [TIFF OMITTED] T6524.061

                                 <all>

</pre></body></html>
